<html>
<title> - THE 2010 CENSUS: ENUMERATING PEOPLE LIVING IN GROUP QUARTERS</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]




 
      THE 2010 CENSUS: ENUMERATING PEOPLE LIVING IN GROUP QUARTERS

=======================================================================

                                HEARING

                               before the

                  SUBCOMMITTEE ON INFORMATION POLICY,
                     CENSUS, AND NATIONAL ARCHIVES

                                 of the

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                           FEBRUARY 22, 2010

                               __________

                           Serial No. 111-82

                               __________

Printed for the use of the Committee on Oversight and Government Reform


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                     http://www.oversight.house.gov



                  U.S. GOVERNMENT PRINTING OFFICE
61-799                    WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="4621362906253335322e232a366825292b68">[email&#160;protected]</a>  

              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                   EDOLPHUS TOWNS, New York, Chairman
PAUL E. KANJORSKI, Pennsylvania      DARRELL E. ISSA, California
CAROLYN B. MALONEY, New York         DAN BURTON, Indiana
ELIJAH E. CUMMINGS, Maryland         JOHN L. MICA, Florida
DENNIS J. KUCINICH, Ohio             MARK E. SOUDER, Indiana
JOHN F. TIERNEY, Massachusetts       JOHN J. DUNCAN, Jr., Tennessee
WM. LACY CLAY, Missouri              MICHAEL R. TURNER, Ohio
DIANE E. WATSON, California          LYNN A. WESTMORELAND, Georgia
STEPHEN F. LYNCH, Massachusetts      PATRICK T. McHENRY, North Carolina
JIM COOPER, Tennessee                BRIAN P. BILBRAY, California
GERALD E. CONNOLLY, Virginia         JIM JORDAN, Ohio
MIKE QUIGLEY, Illinois               JEFF FLAKE, Arizona
MARCY KAPTUR, Ohio                   JEFF FORTENBERRY, Nebraska
ELEANOR HOLMES NORTON, District of   JASON CHAFFETZ, Utah
    Columbia                         AARON SCHOCK, Illinois
PATRICK J. KENNEDY, Rhode Island     BLAINE LUETKEMEYER, Missouri
DANNY K. DAVIS, Illinois             ANH ``JOSEPH'' CAO, Louisiana
CHRIS VAN HOLLEN, Maryland
HENRY CUELLAR, Texas
PAUL W. HODES, New Hampshire
CHRISTOPHER S. MURPHY, Connecticut
PETER WELCH, Vermont
BILL FOSTER, Illinois
JACKIE SPEIER, California
STEVE DRIEHAUS, Ohio
JUDY CHU, California

                      Ron Stroman, Staff Director
                Michael McCarthy, Deputy Staff Director
                      Carla Hultberg, Chief Clerk
                  Larry Brady, Minority Staff Director

   Subcommittee on Information Policy, Census, and National Archives

                   WM. LACY CLAY, Missouri, Chairman
CAROLYN B. MALONEY, New York         PATRICK T. McHENRY, North Carolina
ELEANOR HOLMES NORTON, District of   LYNN A. WESTMORELAND, Georgia
    Columbia                         JOHN L. MICA, Florida
DANNY K. DAVIS, Illinois             JASON CHAFFETZ, Utah
STEVE DRIEHAUS, Ohio
DIANE E. WATSON, California
HENRY CUELLAR, Texas
                     Darryl Piggee, Staff Director


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on February 22, 2010................................     1
Statement of:
    Groves, Robert, Director, U.S. Census Bureau; Robert 
      Goldenkoff, Director, Strategic Issues, Government 
      Accountability Office; Peter Wagner, executive director, 
      Prison Policy Initiative; and Thomas Ellett, associate vice 
      president, student affairs, New York University............    18
        Ellett, Thomas...........................................    50
        Goldenkoff, Robert.......................................    28
        Groves, Robert...........................................    18
        Wagner, Peter............................................    44
Letters, statements, etc., submitted for the record by:
    Clay, Hon. Wm. Lacy, a Representative in Congress from the 
      State of Missouri, prepared statement of...................     3
    Ellett, Thomas, associate vice president, student affairs, 
      New York University, prepared statement of.................    52
    Goldenkoff, Robert, Director, Strategic Issues, Government 
      Accountability Office, prepared statement of...............    30
    Groves, Robert, Director, U.S. Census Bureau, prepared 
      statement of...............................................    21
    Towns, Hon. Edolphus, a Representative in Congress from the 
      State of New York, prepared statement of...................    12
    Wagner, Peter, executive director, Prison Policy Initiative, 
      prepared statement of......................................    46


      THE 2010 CENSUS: ENUMERATING PEOPLE LIVING IN GROUP QUARTERS

                              ----------                              


                       MONDAY, FEBRUARY 22, 2010

                  House of Representatives,
   Subcommittee on Information Policy, Census, and 
                                 National Archives,
              Committee on Oversight and Government Reform,
                                                      Brooklyn, NY.
    The subcommittee met, pursuant to notice, at 10 a.m., at 
Brooklyn Borough Hall, 209 Joralemon Street, Brooklyn, NY, Hon. 
Wm. Lacy Clay (chairman of the subcommittee) presiding.
    Present: Representatives Clay and Towns (ex officio).
    Staff present: Darryl Piggee, staff director/counsel; Jean 
Gosa, clerk; Yvette Cravins, counsel; Frank Davis, Anthony 
Clark, and William Jusino, professional staff members; and 
Shrita Sterlin, deputy communications director.
    Mr. Clay. Good morning. The Information Policy, Census, and 
National Archives Subcommittee of the Oversight and Government 
Reform Committee will now come to order. Without objection the 
Chair and the panel will have 5 minutes to make opening 
statements followed by opening statements by any other Members 
that may arrive.
    Let me begin by welcoming all of you to today's oversight 
hearing of ``The 2010 Census: Enumerating People Living in 
Group Quarters.'' I also want to say I am so pleased to be here 
as a guest of Chairman Towns and to be in this stately room.
    The purpose of today's hearing is to examine efforts to 
enumerate group quarter populations as the Census Bureau 
prepares for the 2010 census.
    I want to thank Chairman Towns for his leadership of the 
Oversight Committee and his recognition of the importance of 
the 2010 census. I also want to thank him for bringing us here 
this morning. I always enjoy coming to New York, and especially 
to Brooklyn. I truly appreciate the hospitality afforded by you 
and your staff.
    Mr. Chairman, as you know, Kings County is one of the 
hardest counties hit in the United States, so it is important 
that we are here today to discuss efforts to reduce the 
undercount in the 2010 census.
    The Group Quarters population consist of all persons 
residing in the United States who do not live in housing units 
such as single-family houses, apartments and mobile homes. 
Group quarters consist of nursing homes, military barracks, 
correctional facilities, juvenile institutions, migrant worker, 
dormitory, convents and group homes. Group quarters populations 
are different from housing as a unit population in counting 
people in group quarters and is very different from counting 
people in housing units. Today we will discuss the various 
sites of group quarters and the special places that contain 
them.
    In the last census universities and military bases and 
correctional institutions were the most sizable special places. 
Skilled nursing facilities and assisted living facilities are 
other examples of special places. The populations are expected 
to increase with baby-boomers retiring in record numbers.
    We want this hearing today to focus on the challenges that 
the Bureau and the group quarters organizations are facing as 
we prepare for the 2010 census. We want to know what you think 
about your plan and how effective you think they will be, and 
we want your input about how we can improve this process both 
now and in the next census. Additionally, we want you to reach 
out and network with the people at organizations that you come 
in contact with here today to further increase the chance in 
the county of counting as many people as possible.
    It is our hope through our hearing today we will gain a 
better understanding of the plans for enumerating people living 
in group quarters during the 2010 census.
    And now I yield to Chairman Towns.
    [The prepared statement of Hon. Wm. Lacy Clay follows:]

    [GRAPHIC] [TIFF OMITTED] T1799.001
    
    [GRAPHIC] [TIFF OMITTED] T1799.002
    
    [GRAPHIC] [TIFF OMITTED] T1799.003
    
    [GRAPHIC] [TIFF OMITTED] T1799.004
    
    [GRAPHIC] [TIFF OMITTED] T1799.005
    
    [GRAPHIC] [TIFF OMITTED] T1799.006
    
    [GRAPHIC] [TIFF OMITTED] T1799.007
    
    Mr. Towns. Thank you very much, Chairman Clay. First of 
all, let me welcome you to Brooklyn. And you're right, we had 
some problems in the past in terms of making certain that we 
get an accurate count, but I also need to point out that was 
before we--let me make that very clear.
    The 2010 census is a top priority for the committee. It has 
been following it very closely. With only 6 weeks to go until 
census day on April 1st, we want to make sure that the Census 
Bureau and our constituents are ready for it. A fair and 
accurate census is the only way we have to ensure fairness, and 
we join in the recognition of enforcement of Members of the 
House and distribution of vital services and benefits to those 
who need it the most.
    Chairman Clay, it is my hope that this hearing will provide 
an opportunity for the members of this committee to hear about 
the preparation the Census Bureau has made to make sure that we 
get the most accurate and complete census count ever. Several 
challenges to a successful census, of course, remain, but it is 
not too late for us to work together to address them.
    Let me make it very clear, I am not interested in the blame 
game, I'm interested in the correction game. We are concerned 
today about the counting of people living in what we call group 
home quarters. This includes people living in group situations 
such as college, dormitories, nursing homes, military barracks, 
prisons, juvenile institutions, migrant workers, convents and 
group homes. The Census Bureau counts people according to where 
they reside on census day April 1st, even if that is not their 
permanent address.
    In the past weaknesses within this system as well as other 
problems have led to some people being counted twice, some 
people being missed entirely. Past censuses have not treated 
all communities equally. Historically many communities have 
been underserved by this census count. Many millions of the 
people out of the population count. With millions of dollars in 
Federal and State funding tied to the count and with so many in 
our community that need our help, we cannot accept that this 
time around.
    The Census Bureau and the Government Accountability Office 
have studied the undercount very closely and we look forward to 
hearing from them today as they address this issue. They share 
our concerns about the harm that has been done to historically 
undercounted communities, and I hope you share our commitment 
to making this right. In order to do that we must put more 
resources into those areas that have been undercounted. We 
cannot continue doing the same thing and then expecting 
different results.
    I look forward to working with you, Chairman Clay, and the 
members on this committee as we continue our extended oversight 
of the 2010 census. It is a critical constitutionally mandated 
function, and we need to make sure we get it right.
    I also look forward to hearing from our witnesses whose 
continued hard work has brought us to where we are today. And 
we will help and it will help us ensure that we have the most 
accurate and complete census count ever. We want to let the 
Census Bureau know that we are eager to do our part to help 
make this happen. And, of course, in order to do it, we might 
have to make some changes based on information that might come 
forward in a hearing of this nature, and I'm hoping that there 
is the flexibility coming from some of the leadership.
    On that note, Mr. Chairman, I yield back the balance of the 
time.
    Mr. Clay. Thank you so much, Chairman Towns.
    [The prepared statement of Hon. Edolphus Towns follows:]

    [GRAPHIC] [TIFF OMITTED] T1799.008
    
    [GRAPHIC] [TIFF OMITTED] T1799.009
    
    [GRAPHIC] [TIFF OMITTED] T1799.010
    
    [GRAPHIC] [TIFF OMITTED] T1799.011
    
    [GRAPHIC] [TIFF OMITTED] T1799.012
    
    Mr. Clay. I appreciate your opening statement, especially 
the part about we cannot continue to do the same thing over and 
over again. You're absolutely correct.
    Now we will move to the testimony portion of this hearing 
and I will introduce our panel. The first witness will be Dr. 
Robert Groves, the Director of the U.S. Census Bureau. Dr. 
Groves began his tenure as Director on July 16, 2009. Earlier 
he was the Census Bureau Associate Director for the Statistical 
Design Methodology. In 2008 he became a recipient of a 
prestigious award in recognition of the time he contributed to 
the development of the economic statistics. He is the author, 
the co-author of several articles. He got his bachelor degree 
in statistics and sociology from the University of Michigan. He 
also earned his doctorate in Michigan. Thank you for being 
here.
    Our next witness is Mr. Robert Goldenkoff, Director of 
Strategic Issues with the U.S. Government Accountability 
Office. Mr. Goldenkoff is responsible for reviewing 2010 census 
and government wide counting reform. Prior research areas have 
included transportation securities, combative union 
trafficking, Federal statistics program. He received a BA in 
political science and a masters of public administration degree 
from the George Washington University.
    Next we will hear from Mr. Peter Wagner, executive director 
of the Prison Policy Initiative. Mr. Wagner teaches, lectures 
and writes about the impact of incarceration in the United 
States. His current focus is on the U.S. Census Bureau counting 
of the Nation's prison population. He has presented his 
research at national and international conferences and meetings 
including to key note directors at Harvard and Brown 
Universities. Thank you for being here, Mr. Wagner.
    Our final witness will be Professor Thomas Ellett, 
associate VP for student affairs at New York University, which 
has an exemplary university housing system in the United States 
and the largest among private schools. He currently oversees a 
significant student affairs unit at NYU including residential 
life. He is an adjunct associate assistant professor in the 
Steinhardt School of Culture Education in New York. 
Professional Ellett received his Ph.D. from Fordham University 
right here in New York. And I thank all of our witnesses for 
appearing here today and look forward to your testimony.
    It is the policy of the committee to swear in all witnesses 
before their testimony. Please stand and raise your right 
hands.
    [Witnesses sworn.]
    Mr. Clay. Thank you. You may be seated.
    Let the record reflect that the witnesses answered in the 
affirmative.
    I ask that each of the witnesses now give a brief summary 
of their testimony. Please limit your summary as I have 
mentioned, and it will be included in the hearing record.
    Dr. Groves, you may begin with your opening statement.

  STATEMENTS OF ROBERT GROVES, DIRECTOR, U.S. CENSUS BUREAU; 
   ROBERT GOLDENKOFF, DIRECTOR, STRATEGIC ISSUES, GOVERNMENT 
ACCOUNTABILITY OFFICE; PETER WAGNER, EXECUTIVE DIRECTOR, PRISON 
POLICY INITIATIVE; AND THOMAS ELLETT, ASSOCIATE VICE PRESIDENT, 
              STUDENT AFFAIRS, NEW YORK UNIVERSITY

                   STATEMENT OF ROBERT GROVES

    Dr. Groves. Chairman Towns, Chairman Clay, it's great to be 
with you today here in New York.
    First, it's important for me to start by noting that the 
2010 census has begun. We began on January 25th in a little 
native village in Alaska called Noorvik, and we are mounting 
operations almost daily to build on that.
    Our advertising campaign is on the air and in print. The 
purpose of that campaign, it's important to get the word out 
about the census. Our data shows that knowledge, public 
knowledge about the census is at an all time low for the 
decade.
    In my last testimony in front of this committee I noted a 
set of future activities and risks that existed in the late 
fall. We're 60 days away from census day right now. We've 
addressed many of those preparations for future activities. 
Some risks still exist. I'm happy to talk about them later, but 
we have notable achievement.
    All roughly 500 census, local census offices are open, 
staffed, equipment is in place, computer networks are working 
to serve them. We are now recruiting for the big push of census 
staff that will hit the field. We now have over 2.4 million 
applicants in the pool. We're on schedule for that. We have 
exceeded our goals. We had a goal of about 120,000 partnership 
organizations that helped us get the word out. Just last week 
that number is now 200,000. This is a fantastic comment, I 
think, on this country's willingness to work with us to get the 
word out about this census. We have 9,600, nearly 10,000 
complete count committees around the country. Most of those are 
government base, some are with private sector workers.
    We're on track with all the printing of forms. In a matter 
of days they'll be 425 semi-trailers that will leave our 
warehouses filled with forms that will hit post offices around 
the country. We started on February 1st group quarters advance 
visits that are key to the issue that we're discussing today, 
I'll be happy to expand on that. And then we delivered to the 
postal service about 10 million advance letters to update these 
areas. So, a lot is happening right now, the pace is picking 
up.
    But let me turn to the chief focus on this hearing--the 
enumeration of so called group quarters, well defined by both 
chairmen in their remarks.
    I think it's important, what I'll do is basically give a 
lot of basic definitions that give the historical background of 
why the census has done what it does. We use what is called the 
usual residence rule. This is based on the Census Act of March 
1790, where the first Congress expressed the mandate that we 
would count people in their usual abode. Since the first 
Congress contained a lot of the Founding Fathers as Members we 
interpret that as the will of those who wrote the constitution. 
The concept of usual residence remains intact today. The usual 
residence rule is intended to count people once and in the 
right place, that is where they generally eat, sleep and work 
most of the time. So, the question of pertinence to us today is 
how does that logic apply to group quarters.
    What I'd like to do is go through some major types of group 
quarters to give you a sense of how this is applied. Let's 
begin with prisons and jails. We count prisoners and have done 
so every decade of our lives in those facilities because that 
is where they live and sleep most of the time following the 
usual residence rule.
    In prisons, which are generally State or Federal 
facilities, by way of definition that incarcerates those 
convicted in criminal court and sentenced to terms for more 
than a year. In contrast, jails contain people incarcerated who 
are pending some sort of adjudication process.
    In those facilities the Bureau seeks to get an individual 
census record filled out by each prisoner. For practical and 
logistical constraints in those facilities, we can't do that 
always. Despite our efforts for security and other reasons and 
because of the wishes of those who control the prison, we 
sometimes rely on administrative records. That is an issue in 
counting of group quarters in general, individual census 
records versus administrative records.
    Let me turn to colleges and universities and seminary 
dormitories. College students fall into several categories. 
There are those living away from their parental home while 
attending college. They are counted at the residence where they 
live and sleep most of the time where they are on April 1st. 
Foreign students studying in the United States are counted at 
their household location, generally in college provided housing 
or off campus housing. U.S. students traveling and are studying 
abroad are excluded from the 2010 census as they have been for 
every census for many decades.
    The only students enumerated as part of the group quarters 
operation are students living in a dormitory, fraternity or 
sorority or any other housing arrangement provided by the 
college, university or the seminar. College students in 
apartments, off campus and other residential addresses will 
receive a census questionnaire in the mail just like most 
households in the United States.
    Let me turn to heath care facilities, a major component of 
the group quarters population. They are quite complex for us to 
do censuses in because they're so diverse. The operation in 
health care facilities enumerates inhabitants of long-term 
facilities such as nursing homes and various forms of assisted 
and unassisted living facilities. Group quarters operations 
also counts inhabitants of hospitals that are in mental and 
psychiatric units, long-term care units, hospice units and 
patients with no disposition or exit plan.
    Just as in prisons, census attempts a self enumeration 
process. We do this in conjunction with hospital staff whenever 
possible. There are enumerators which show up at a facility, 
ideally consult with the staff, develop a plan for the 
distribution of these individual census requirements to the 
residents. As with prisons we must exert or must implement some 
flexibility on this because of the health status of individual 
patients and the need for extreme confidentiality under 
regulations governing health care units.
    Let me now turn to a decision we've made in the last few 
days with regard to releasing counts, census counts of 
residents of group quarters that we're planning for May 2011. 
For the first time we will supply block level counts as defined 
by Public Law 94-171 used in redistricting activities in the 
State. We will supply those at the end of March 2011. In 
talking to those concerned, external stakeholders about these 
things, we also learned that another tabulation would be useful 
for those involved in redistricting, and as it turns out in our 
own count question resolution programs that looks for anomalies 
in census counts.
    So, for the first time we will submit for--we will release 
a table from our Summary File 1 product plan, it's called 
traditionally the P-41 table. Some of those in the audience may 
recognize the P-41 table. We're going to do that earlier than 
ever before.
    That provides counts of the total universe of group 
quarters, institutionalized and non-institutionalized 
populations, that will include counts down to the block level 
of those in correction facilities, juvenile facilities, 
nursing/skilled nursing facilities and other facilities. It 
will also include counts of college students in dorms, those in 
military quarters and other non-institutionalized facilities. 
As I said, we'll provide these down to the block level. We will 
provide it over a file transfer protocol downloadable from the 
Web for users in the redistricting process.
    I want to close by reaffirming the Census Bureau's 
commitment to an accurate count in the 2010 census. I also want 
to note, as evidenced by this hearing today, our commitment to 
work with the data user community throughout the country that 
needs information for a diverse set of purposes.
    I'd also like to stress that the Census Bureau does not 
participate in any redistricting activities. Our job is a 
completely non-partisan objective enumeration of the 
population. Simply put, the Census Bureau collects individual 
information and reports aggregates based on it. Fittingly, the 
Founding Fathers left it to Federal, State and local 
governments to use the information for their political 
purposes. In that vein, the Census Bureau endeavors to compile 
the group quarters information in the Summary File I mentioned 
for its key data users and supply it as early as possible.
    I want close by noting I believe the 2010 census is on 
track to be a successful one. We are in a very critical time. 
We need every political, social and religious leader to get the 
word out that participating in the census is in all of our 
hands. I look forward especially to working with the committee 
in the coming months to let you know how we're doing and how 
the country is proceeding on this task.
    Mr. Clay. Thank you so much, Dr. Groves, for your 
testimony.
    Dr. Groves. Thank you.
    [The prepared statement of Mr. Groves follows:]

    [GRAPHIC] [TIFF OMITTED] T1799.013
    
    [GRAPHIC] [TIFF OMITTED] T1799.014
    
    [GRAPHIC] [TIFF OMITTED] T1799.015
    
    [GRAPHIC] [TIFF OMITTED] T1799.016
    
    [GRAPHIC] [TIFF OMITTED] T1799.017
    
    [GRAPHIC] [TIFF OMITTED] T1799.018
    
    [GRAPHIC] [TIFF OMITTED] T1799.019
    
                 STATEMENT OF ROBERT GOLDENKOFF

    Mr. Goldenkoff. Chairman Towns, Chairman Clay, I am pleased 
to be here at Brooklyn Borough Hall this morning to discuss the 
Census Bureau's efforts to conduct an accurate group quarters 
count.
    As you know, group quarters consist of college dormitories, 
prisons, nursing homes and similar group living arrangements. 
Examples of group quarters right here in Brooklyn include Long 
Island University, Brooklyn Hospital Center and the Crossroads 
Juvenile Center.
    During the 2000 census for a variety of reasons group 
quarters were sometimes counted more than once, missed or 
included in the wrong location. However, an inaccurate 
enumeration is critical because data from the census are used 
to apportion seats in Congress, redraw congressional districts, 
and help allocate more than $400 billion each year in Federal 
aid to State and local governments. Census data are also used 
to determine the boundaries of local election districts. So for 
Brooklyn, as with all localities, an incomplete count could 
have implication for political representation and the borough 
getting its fair share of Federal assistance.
    During the 2000 census Brooklyn's total population of 
around 2\1/2\ million people, around 39,000 or about 1\1/2\ 
percent lived in group quarters. Although Brooklyn had a 
smaller percentage of group quarter residents compared to the 
rest of the United States. The borough's demographic diversity 
and other socioeconomic factors make sections of Brooklyn 
particularly hard to count. What's more, Brooklyn's range of 
group quarters including colleges, group homes, convents and 
rooming houses, only add to the Bureau's enumeration challenges 
here.
    As requested, my testimony today will now focus on first, 
the extent to which the Bureau has strengthened its procedures 
for counting group quarters since the 2000 census. And second, 
particular challenges and opportunities for an accurate group 
quarters count in Brooklyn in 2010.
    My remarks today are based in part on observations at 38 
locations across the country including Brooklyn, the Bronx, 
Manhattan and Queens. The bottom line is that the operational 
change that the Bureau has made since the 2000 census position 
it to more accurately count group quarters. Still, a successful 
group quarters count, particularly in an area as diverse as 
Brooklyn remain a challenging task, and special efforts will be 
needed to ensure complete count.
    Now, following the 2000 census, the Bureau developed and 
tested new procedures to address the difficulties it had in 
counting group quarters. For example, in preparing for the 
group quarters count the Bureau moved from a manual to GPS 
generated matchbox which will help ensure group quarters are 
counted in the proper jurisdiction. The Bureau also verified 
group quarter facilities through site visits rather than 
telephone interviews which should increase accuracy. And then 
the Bureau combined the conventional housing units and group 
quarters address listed to a single data base, which would 
reduce the chances of double counting. The Bureau also used a 
number of quality assurance procedures such as supervisory 
review of workers assignment. The actual count of group 
quarters residents will start at the end of March and last 
through mid May.
    Brooklyn presents challenges as well as opportunities. 
Factors such as poverty, high levels of non-English speakers, 
complex household arrangements, as well as a high percentage of 
rental and vacant units, multi-unit buildings and crowded 
housing all contribute to making the borough one of the most 
difficult areas in the country to count.
    Moving forward, in light of these demographic and housing 
unit challenges, it will be important for the Bureau to carry 
out remaining group quarters operations on time, according to 
plan, as well as closely monitored key performance measures to 
ensure that the group quarters count proceeds on track and 
quickly address any glitches.
    It will also be important for the Bureau to ensure that 
Census workers have knowledge of the language, culture and 
living arrangements of each and every neighborhood in the 
borough.
    That said, the Bureau cannot conduct a successful 
enumeration on its own.
    Census forms will soon be arriving at millions of 
households across the country. It will then be up to each and 
every one of us to fulfill our civic duty to complete the 
questionnaire and mail it back. According to the Bureau, each 
percentage point increase in the mail response rate saves 
taxpayers around $85 million and yields more accurate data.
    In closing, census day, April 1st, is right around the 
corner. A few weeks from now the success of the 2010 census 
will be both literally and figuratively in the hands of 
Brooklynites and people everywhere across the country.
    Chairman Towns, Chairman Clay, this concludes my remarks, 
and I will be happy to answer any questions that you might 
have.
    Mr. Clay. Thank you so much, Mr. Goldenkoff.
    [The prepared statement of Mr. Goldenkoff follows:]

    [GRAPHIC] [TIFF OMITTED] T1799.020
    
    [GRAPHIC] [TIFF OMITTED] T1799.021
    
    [GRAPHIC] [TIFF OMITTED] T1799.022
    
    [GRAPHIC] [TIFF OMITTED] T1799.023
    
    [GRAPHIC] [TIFF OMITTED] T1799.024
    
    [GRAPHIC] [TIFF OMITTED] T1799.025
    
    [GRAPHIC] [TIFF OMITTED] T1799.026
    
    [GRAPHIC] [TIFF OMITTED] T1799.027
    
    [GRAPHIC] [TIFF OMITTED] T1799.028
    
    [GRAPHIC] [TIFF OMITTED] T1799.029
    
    [GRAPHIC] [TIFF OMITTED] T1799.030
    
    [GRAPHIC] [TIFF OMITTED] T1799.031
    
    [GRAPHIC] [TIFF OMITTED] T1799.032
    
    [GRAPHIC] [TIFF OMITTED] T1799.033
    
    Mr. Clay. Mr. Wagner, you may proceed.

                   STATEMENT OF PETER WAGNER

    Mr. Wagner. Thank you, Chairman Towns and Chairman Clay, 
for having me here today. My name is Peter Wagner, I am 
executive director of the Prison Policy Initiative. And for the 
last decade I studied how the Census Bureau counts people in 
prisons, and we've worked to quantify the policy and legal 
implications that flow from the technical decisions.
    Fairly and accurately counting the prison population 
matters. On census day, there will be about 2.3 million people 
incarcerated in this country. That's a population that's larger 
than the fourth largest city in the country and larger than 15 
individual States.
    I'd like to just briefly address some of the distortions in 
representation that flow from the Census Bureau's current 
practices regarding how incarcerated people are counted, and 
address some of the long-term changes that will be needed to 
fully address this problem, while also commending the Census 
Bureau for making the step to make prisons and other group 
quarter populations easier to find in the data.
    As Dr. Groves mentioned the Census Bureau counts people in 
prisons as if they actually lived in the correctional facility, 
and this procedure has been used since the first census in 
1790. And while it is the procedure that will be used in this 
census, it's a growing concern to the State and local 
governments that changes will be required in the future.
    Specifically, the problems occur at the redistricting 
level. It turns out there's very little impact on how Federal 
funding is distributed, because most Federal funded formulas 
are very highly sophisticated formulas that tailors the program 
to the needs, and so they can directly or indirectly not 
improve prison populations, so the redistricting implications 
are pretty significant.
    Just yesterday I just got back from a small town in Iowa 
called Anamosa. It was a town that just recently had a city 
council ward of 96 percent prisoners. In 2005, there was a city 
council election and no one ran for office. And a man named 
Danny Young got up, went to work for the county, came home and 
found out he had just been elected to the city council. He 
wasn't a candidate, he didn't vote for himself, but his wife 
and a neighbor voted him into office. And this sparked a 
citywide movement to change the form of government in this city 
so that a situation in wards where they have prisons that are 
the majority of the ward will go to a large government.
    And we discovered that Anamosa is an extreme example, but 
it's far from unique. Waupun, WI has a district that is 80 
percent prisoners. Lake County, TN has a district that is 
almost 90 percent incarcerated.
    What we see in our research around the country, is that 
when local governments--when citizens of rural county 
governments that have prisons discover that their prisons are 
changing the representation that each district has, they asked 
legislature to change it. So, in the case of Franklin County, 
NY, the legislature has taken prisoners out.
    It's very important about the decision that the Census 
Bureau has made to make the prison population easier to find 
that will greatly reduce the burden on some of these rural 
counties. Franklin County, NY, as I said, always takes the 
prison population out, and their--but they made two mistakes in 
the 2000 census to redistricting that would not occur this 
time.
    When they were taking the prison populations out they made 
a mistake and they also took out a nursing home, and this was 
the subject of a lawsuit and they corrected it. And then after 
the district lines became official, they found out that they 
missed a prison. A prison that they thought was on the county 
line, that they thought was in the neighboring county turned 
out to be in another county. So changing how the data was 
published, will greatly facilitate counties and other local 
governments that want to know what their actual population is. 
It will give them the tools they need.
    I just want to comment, Dr. Groves was very clear on this, 
but there's been some confusion. The Census Bureau is not 
proposing in 2010 to change where people in prison are counted. 
What they are doing is making it easier for State and county, 
local governments to find prisons and other group quarter 
populations in the data.
    I'll stop there and be happy to answer any questions.
    Mr. Clay. Thank you so much, Mr. Wagner.
    [The prepared statement of Mr. Wagner follows:]

    [GRAPHIC] [TIFF OMITTED] T1799.034
    
    [GRAPHIC] [TIFF OMITTED] T1799.035
    
    [GRAPHIC] [TIFF OMITTED] T1799.036
    
    [GRAPHIC] [TIFF OMITTED] T1799.037
    
    Mr. Clay. Mr. Ellett.

                   STATEMENT OF THOMAS ELLETT

    Mr. Ellett. Chairman Clay and other distinguished members 
of the Information Policy, Census, and National Archives 
Subcommittee, and Chairman Towns, Chairman of the Oversight and 
Government Reform Committee, thank you for the opportunity to 
testify today. My name, as you mentioned earlier, is Tom 
Ellett, and I serve as the associate vice president for student 
affairs at New York University, and I'm responsible for 
overseeing the university's residence hall system.
    As background for those unfamiliar with the university, NYU 
is the largest private non-private institution of higher 
education in the United States with a student population, 
including undergraduates and graduate students, of 
approximately 40,000. 11,600 of those students live in 23 
number of university residence halls. The halls are located in 
the lower end of Manhattan spread throughout a few mile radius 
interspersed between the New York City general population. 95 
percent of the first-year students reside in our facilities and 
1,000 graduate students. The facilities range in size and level 
of amenities.
    In my opening statement, I will briefly discuss NYU's 
interaction with Census officials to date and give an overview 
of the university's efforts to assist in enumeration efforts. 
During the question and answer period, I will be happy to 
expand on some of the difficulties encountered by NYU 
throughout this process and provide my own thoughts about how 
Census officials may be able to ensure a more accurate student 
count as they prepare for the 2020 census.
    Census officials initially made contact with the 
university's Office of Public Affairs late December of last 
year. Shortly thereafter, NYU administrators responsible for 
faculty housing, government relations and career services met 
with Census officials. They were seeking NYU's assistance in 
getting the highest student return rate as possible, 
communicating the importance of the census to our student body 
and to use university space to interview potential door to door 
and local workers. Thus far, two meetings have taken place, the 
most recent being late last week. We have scheduled an 
additional meeting where census officials will meet with our 
residence hall directors, who oversee the facility, to explain 
the process of getting an accurate count of students living in 
our facilities. The RHD's are key to this process because they 
reside in the hall and are the professional/administrative 
staff who oversee the student experience.
    NYU is planning a series of proactive actions to both 
communicate to our students the importance of census 
participation and assist officials in receiving the highest 
possible rate of return. On April 1st, the university will send 
an e-mail to all students reminding them of the importance of 
completing the census forms. NYU will also provide Census 
officials with a list of all 11,600 students living in NYU 
residence halls. This list will be in the form of envelope 
labels that officials will use to send census forms to each 
residence hall. Residence advisors [RAs], undergraduate and 
graduate students in each building, will then hold floor 
meetings to urge participation, then followup individually to 
ensure full participation. Census officials will then pick up 
these materials from each residence hall by the third week of 
April.
    Professionally, I have served on the Executive Board of the 
non-profit professional association, the Association of College 
and University Housing Officers-International and have queried 
my colleagues from across the country who also run large campus 
housing programs. During the question and answer period, I 
would be happy to share both my views and the thoughts of my 
colleagues around the country about how universities could more 
effectively work with Census officials on our share of ensuring 
a more accurate count of university residence halls.
    Again, I thank the subcommittee for that opportunity to 
testify today.
    Mr. Clay. Thank you so much, Mr. Ellett.
    [The prepared statement of Mr. Ellett follows:]

    [GRAPHIC] [TIFF OMITTED] T1799.038
    
    [GRAPHIC] [TIFF OMITTED] T1799.039
    
    Mr. Clay. I want to thank all the witnesses for 
participating here.
    Chairman Towns.
    Mr. Towns. Thank you very much. Let me begin with you, Dr. 
Groves. The 2010 census that's been on GAO's high risk list 
since March 2008, GAO cited challenges including weaknesses in 
the acquisition of the management of information technology, 
problems in handling computers and certainly over the final 
course of this, we've covered some of these issues before, but 
I'd like to ask you about one of them today.
    It is my understanding that the technological concerns that 
GAO had was with the limited testing of non-response followup 
and group quarters count used in the paper base operation and 
control system. According to GAO the test revealed problems 
that will need to be addressed before census day. The test also 
did not evaluate the stress the system will face with 
processing the estimated 48 million housing units nationwide 
that will be involved in the non-response followup. GAO added a 
few of the newer temporary census employees who will actually 
conduct the operations involved in the test.
    These systems and others systems that the Census Bureau 
created will need to run very smoothly if we are going to 
ensure an accurate and complete count, particularly in 
historically undercounted and overcounted communities. That's 
my statement, now here's my question. Can you elaborate on the 
results of these tests?
    Dr. Groves. Sure. Thank you, Chairman. I'm glad this was 
your first question, because I have a few things to say about 
this. First of all, the GAO assessment we agree with these were 
data that we supplied them, so there's disagreement among us on 
this. Let me give you an update on where we are on this. As I 
testified in front of Chairman Clay's subcommittee, gee, I 
think it was in October, maybe September, this is the No. 1 
risk that I worry about in addition to the largest risk, and 
that is how will the American public respond to our request for 
completed questionnaires.
    There was a test, there were two tests in December of the 
software. The software is now being developed because of the 
change of plans that occurred before I got there in 2008, the 
dropping of the hand held computers required the software to be 
written anew. There were two tests in December, the first test 
did not include this paper based operation control system that 
you mentioned as part of the test. And also we discovered a 
problem in the payroll system software. That was fixed. And 
another test was run about 2 weeks after that. In both of these 
tests there was an attempt to simulate load, and on the first 
test there were indeed large numbers of users on the system.
    There were problems found in the first test that were then 
fixed. Problems in the second test were also found and those 
are on the fix list, many of those have been fixed.
    Let me tell you where we are right now. This software is 
being released in three phases. The non-response followup phase 
that you referenced is in the second release that's just been 
released recently. It will actually be released, the non-
response followup software itself will be released at the end 
of March, about a month before it's needed, so we're writing 
the software in a schedule that essentially releases pieces of 
software about a month before they're used.
    Is this a high risk endeavor? Yes. Are we aware of the 
risk? Yes. How are we managing this process? I set up in August 
an independent assessment team that has outside computer 
scientists and internal, our CIO as well as the commerce chief 
technology officer. They're meeting almost daily now overseeing 
a process that must happen for us to be successful with this 
software. It's a set of tradeoff decisions.
    As we release these successive releases and we find things 
that aren't working optimally, then we form a list of fixes on 
those. We're also writing the functions for the next release. 
We will make tradeoff decisions going forward that will have 
work around, manual work around for some of the functions that 
were on the list that would have been the ideal list. I am 
almost in constant communications with our regional offices 
about turning computer assisted operations into manual 
operations to make sure we can do those well.
    The wisdom that is required on the part of the Census 
Bureau right know and the external consultants I brought in is 
to make those tradeoff decisions wisely, so that we have a set 
of core functions that allow us to do these operations. All I 
can say at this point is we are on top of this problem, we're 
attempting to manage it as well as we can. The regions are 
optimistic they can do the functions that are going into manual 
mode because they did them that way in prior censuses as it 
turns out. But this is not over and I'm happy to keep you and 
the committee up to date on this as frequently as you'd like.
    Mr. Towns. Let me hear from GAO.
    Mr. Goldenkoff. For all of us here who are concerned about 
the census I would agree with Dr. Groves. There are two things 
that should keep us all up awake at night as we get closer and 
closer to census day. One of those is the response rate which 
is the external challenge, but the internal challenge is the 
State of the IT system in particularly the PBOCS, the paper 
based operational control system. We have been looking at it, 
the Commerce Department Inspector General has been looking at 
it and the Bureau is too, but I think that we are maybe not as 
optimistic at this point from some of the data that we've been 
seeing.
    As we see it there are four significant issues with PBOCS. 
One is people, the second is hardware, the third is software 
and the fourth is schedule, and I'll talk about each one very 
briefly.
    The people, the folks who are the technicians who are 
working on PBOCS they are working at capacity but they're 
falling behind schedule. It's just not enough to train people 
to go around, and they're not available to train additional 
people to help out. And, you know, in the days between when 
these operations, the census operations go on line, they'll be 
challenges to fix these existing issues as well as deal with 
new issues that come up as the different operations ramp up.
    Hardware issues, there's significant problems with the 
PBOCS computer that limit the number of users that can use the 
systems at any one time, that still needs to be addressed.
    Software issues, the critical software defects, the last 
piece of data that we saw from the test, the critical software 
defects continued to mount. That's not the trend you want to 
have when these systems need to go live very soon. And system 
performance is lagging.
    The fourth major issue is schedule. Time is not on the 
Bureau's side. These different operations have fixed start 
dates, so the various IT systems need to be ready when 
according to the schedule of the start date of these different 
operations, otherwise things start to get pushed back and it 
has a cavitating effect in all the downstream operations which 
can affect the data quality and also add to the cost. And so, 
to deal with that, one of the things, as Dr. Groves referred to 
as a tradeoff, one of the things that's happening now is 
different functions of the PBOCS are actually being taken off, 
and so the focus now is just on those critical systems, which 
is probably a good thing in terms of risk management, but it's 
still going to create some challenges in the future for the 
Bureau.
    Mr. Towns. So you're not quite as optimistic as Dr. Groves.
    Mr. Goldenkoff. They are working as hard as they can on it, 
but here it is, it's the 11th hour and there's a lot of work 
that needs to be done and not a whole lot of time remaining.
    Mr. Towns. Thank you, Mr. Chairman. We will have an 
additional round of hearings scheduled.
    Mr. Clay. Let me start with Mr. Ellett. Tell me, how does 
the educational campaign in NYU plan to improve, for example, 
campus awareness and to let parents of dormitory students know 
not to count their children in the household, how do you deal 
with that?
    Mr. Ellett. I can't say that's an area that we have talked 
to the Census about. We have certainly talked about educational 
campaign for why students would want to complete the census, 
and we think that we have good followup process to ensure that 
every student will know that they should be doing it, and will 
have multiple times should they not turn it in that our staff 
will be going to them to remind them to turn in their census.
    Mr. Clay. Have you any recommendations on how you can 
improve group quarters enumeration at universities.
    Mr. Ellett. Yes, I do. I have queried, as I mentioned, 
colleagues at colleges and universities in Boston, Los Angeles, 
Chicago, Florida, Illinois and other parts, Texas and other 
parts of the northeast. And some of the challenges that have 
been faced have been the untrained temporary Census staff who 
are not aware of the university housing structure and how to 
engage with universities.
    There seems to be a gap in the confusion between group 
quarters as relates to apartments in residence halls. A number 
of large housing universities have apartments that they manage 
that are directly off campus. And as the age of partnerships 
grow between profit organizations in college and universities, 
some of those facilities are now considered partly through the 
university, and whether those are being captured or not are in 
question as group quarters rather than individuals.
    The geographical issue for my colleagues in urban areas are 
very challenging where there will be two or three different 
geographical areas and working with two to three different 
Census offices rather than one. In the time line the census is 
challenging. Like spring semester you see a 5 to 8 percent 
decrease in student housing across universities and colleges as 
students who will leave the campuses and be abroad, etc. And 
the end of the semester is challenging because students will 
start finals in the very beginning of April and may disappear 
leaving the college campus, and whether they're being counted 
at the college campus or back at home is in question.
    We do have some solutions for some of these. If you'd like 
to hear those I'd be glad to share those. One is the data dump. 
We think that we can actually save the Census a lot of money 
and time by giving you what you want. We have the information 
to the top three questions already in our hands at every 
college, university and we can turn it over very easily without 
printing paper, being a little bit more green friendly, and 
also just giving the information without Census staff having to 
come back four or five times to our college campuses.
    Most of my colleagues think that the on line system that is 
being talked about may not be as successful as the data dump 
that we can provide quickly. I will note that some of my 
colleagues, actually in Florida, some colleges in Florida, are 
giving the data dump directly to Census officers, while the 
majority are not.
    Mr. Towns. Without the Census office asking for it.
    Mr. Ellett. With the Census office asking for it in some 
jurisdictions, but almost every other jurisdiction they are not 
asking for the data dump, which means they turn over the 
records in the numbers of those students.
    Last one would be each college or university is assigned 
one Census office to work in, even though they may be located 
in two or three different geographical areas. NYU, for 
instance, has three different census areas that makes up NYU 
campus.
    Mr. Clay. Thank you.
    Mr. Wagner, what changes in the past are--considering past 
knowledge to require changes in how and where the prisons are 
kept?
    Mr. Wagner. Currently Oregon, Wisconsin, New York, 
Illinois, Maryland and Florida have bills pending that will 
apply to State or State and local legislative districts or 
counties. Some of those States are developing procedures 
working with the Department of Corrections to figure out where 
incarcerated people come from and do an adjustment to put 
people back at home. And then a number of those States have 
bills that would require incarcerated population be removed 
from the count. And then Virginia, Mississippi, New Jersey and 
Colorado have existing laws passed in the previous census 
cycle, will require local governments to remove prison 
populations prior to issuing.
    Mr. Clay. So is that how you envision a workable solution 
to what we have now?
    Mr. Wagner. For this cycle the next step of the solution 
for the 2010 cycle is at the State and local level, the State 
and local government to develop their own procedures.
    Mr. Clay. Thank you so much. Chairman Towns.
    Mr. Towns. Let me just add, listening to some of this 
really requires getting additional information out to people. I 
mean, it sort of makes sense that they fully understand what's 
going on.
    I guess, Dr. Groves, is there any way at this stage of the 
game that through the discretionary funds that you might be 
able to put it into some of these areas and make certain that 
people fully know and understand? Because when you look at--and 
of course over the past 30-years we've gotten bad counts, for 
30-years that I know and I'm sure it's probably even before 
that.
    And of course I see some of the things developing again 
that maybe we still would be in a position to correct by 
looking at ways and methods to get resources into these areas 
in a different kind of way. In other words, local news, local 
press, NYU newspaper, I mean things of this nature that we 
might not have tried in the past.
    I know it's late, I know the hour is late, but the point is 
that there are things called discretionary funds. And let me 
just say to you that we are not up here to beat up and blame, 
no. We are up here to try to get an accurate count, and you 
won't find anybody more cooperative than the Chair of this 
committee and of course be the full committee, in terms of 
working with you to make certain that we get the information 
out to people, because we want to make certain that we get a 
count.
    In this instance, Mr. Wagner, that a whole prison 
population was missed, I mean there's something wrong in this 
day and age when we have these kind of problems. And when I 
look at what's happening in our city--basically the prison 
population comes from seven zip codes in our city. Which means 
those are the areas which probably need the most help, and 
those are the areas that may end up being undercounted.
    Dr. Groves. Thank you for the question. I think there's a 
lot for all of us to do. With regard to the group quarters, the 
so called group quarters population, the challenge is multi-
full because each population presents its own issues, so it's 
back to colleges and universities. I think the biggest 
challenge is to make sure that the student population 
understands that it is their job to enumerate themselves to be 
part of that enumeration, not their parents' job. That's a big 
barrier we have, especially a barrier for the students who live 
off campus.
    The situation with four roommates living in an apartment 
near a college campus is one that's a real challenge for us 
because no one really is used to taking responsibility as the 
head of the household. We have census forms there where 
everyone should, every member of that household should be 
written down. So that's one set of problems.
    There are colleges and universities around the country that 
are doing wonderfully creative stuff on this, really 
spectacular work, I think. My old institution has started a 
contest where the pro-vos is giving a price for the best 
YouTube commercial done by the college students about this 
whole issue to get the word out, and there are great student 
newspaper articles and so on, exactly what you said.
    I think for non-institutionalized populations, as you 
mentioned earlier, are strongest tool in reaching out to local 
partners. And the New York city officials and the complete 
health committee in this city are wonderfully organized. We're 
trying to advertise in the local press. We're advertising in 15 
different local newspapers for the African American and 
Caribbean population. Getting the word out down to the grass 
roots, I think, is the key thing.
    We will also be publishing publicly, you and I, all of us 
can look at participation rates daily by track, by census track 
starting about the third week of March. We'll all be alerted to 
this. And what we hope, with regard to your notion of 
discretionary funds, is to target any advertising to the tracks 
that aren't performing as well as we all hope them to perform 
despite the good work of the partners and so on. So, there are 
a lot of different tools we have. They depend on different 
group quarters and different living situations, and we're 
always open for good ideas.
    Mr. Towns. We have situations that you have an area that 
has housing shortage or the fact that the cost of living is so 
high that people double up and triple up, you know, that kind 
of thing. And of course we found some interesting things, and 
even in our housing developments that wherein you have a 
daughter who gets married and then it's her and her husband 
still living in the apartment. And then you have a son that 
gets married and also lives in the apartment. Now, when the 
count comes they're not going to give us that information 
because, let's face it, they feel that creates problems for 
them in terms of continuing to live there, and where we would 
like to have that information because it helps us to make the 
point that additional housing is needed in order for them to be 
able to have their own apartment.
    So, I think that advertising and talking about the fact 
that it's important that we get accurate information and at the 
same time, you know, let them know that the information that 
the Census Bureau is collecting is not used otherwise. I think 
that, you know, if we can sort of get that across. And I don't 
know in terms of what more we can do that we're not doing. But 
the point is that I want you to see us, the lecturers, as a 
partner with you to be able to address this issue.
    Dr. Groves. Well, you and many of your colleagues have been 
wonderful in putting out PSAs that are being broadcast locally. 
On the issue of doubling up houses, this census is facing a 
challenge that the last census didn't face on this nationwide 
because of the foreclosures that have occurred and people 
moving out of houses that they were buying and living with 
relatives or friends. In areas where that is a big problem 
we're trying to get the word out that those households need to 
be counted fully. So if your brother-in-law is living with you 
because they've lost their home, brother-in-law and sister-in-
law and their kids, because they cannot be counted in any other 
place, they should be included on your census form. And that 
message we're trying to hammer out, and when officials and 
leaders of the community help us in that message it helps a 
lots. There's a companion message that we need, I think, for 
some of those households, especially rental units where that 
doubling up may not be--or that doubling up might be frowned 
upon by the owner of the property.
    We need everyone to understand that the information that is 
provided to the Census Bureau is never passed on to any 
enforcement agency at the local, State or national level, it's 
not passed on to landlords. We have the job of enumerating 
everyone who lives in this country, and that information is 
kept private under very, very strong confidentiality laws that 
we could all be proud of, I think, to protect those data. That 
message needs to be delivered over and over by a lot of trusted 
voices in these communities.
    Mr. Clay. Thank you so much, Dr. Groves. You may want to 
share the story that you shared with me about President Harry 
Truman. You want to share that with the committee.
    Dr. Groves. I'd be happy to. This is a story that's told at 
the Census Bureau, I'm trying to get the hard data on this, but 
here's the story. Part of it we know is true. When Harry Truman 
was President they remodeled the White House, and during the 
remodeling phase they had to move out the President's family. 
They tried to find a house in Washington for the family to 
live. They located a house. And at that point the concern of 
the Secret Service was, well, is this a safe neighborhood for 
the President. And the Secret Service approached the Census 
Bureau and asked for the census forms of the neighbors for the 
new President's residence. The Census Bureau Director said 
``well, I can't do that. We have this law that protects that 
information and I can't give it to you.'' And I want to remind 
us of the story, this is the Secret Service coming to the 
Census Bureau asking about the safety of the President. The 
Census Bureau Director said no, that is a law that's been 
upheld in the courts over and over again. It's a wonderful law 
for all of us to know about because it means that when you say 
something, when you give an answer to the Census Bureau, it 
doesn't go anywhere in any way that can harm you or your 
family.
    Mr. Clay. And I guess Chairman Towns has a point about 
stressing to our constituents that all information and data 
collected by the Census Bureau will be confidential and it 
cannot be shared with any other governmental institutions, and 
that's the point. And that should be part of the communication, 
part of the speech of enumerating that has to go around, that 
should be part of their verbiage also.
    Let me ask you, Dr. Groves, Mr. Ellett suggested that the 
colleges have a data drop to give to the Bureau with the first 
three questions on the form for each student in residence, does 
the Bureau use this data to develop and is it helpful at all in 
enumeration of coverage measures?
    Dr. Groves. In many of the group quarters in 2000 the 
majority of the prison records, the majority of the reports on 
people in those facilities came from administrative records. 
So, for example, in correctional institutions about 56 percent 
of the people were enumerated through administrative records. 
This happens in colleges as well. The findings of the quality 
of those records is such that they're variable over 
institutions. I don't want to comment on the university records 
system at all, but I do know across prisons at a State level 
the nature of the variables that are collected on records and 
missing data rates are highly variable, so we have to do a lot 
of what we call imputation. We have to estimate the answers 
when the records are deficient.
    As I testified before, looking forward record systems are 
getting better and better of all sorts. Thinking ahead for 
censuses in the future, I can't imagine effective cost 
efficient censuses that are not exploiting the existing records 
in new and useful ways. In looking forward in that way we have 
to realize that record systems vary over institutions. We have 
to be real worried about consistent information when we use 
them, but we're using this when we can and we'll continue to 
use it I'm sure.
    Mr. Clay. Dr. Groves, out of curiosity, how are Mormon 
students who are assigned to missions counted, are they counted 
any differently than other students studying abroad.
    Dr. Groves. You mean the Mormon students on missions?
    Mr. Clay. Yes.
    Dr. Groves. Or students or non-students. I assume the 
Mormon missionaries in general, how are they counted.
    Mr. Clay. Yes.
    Dr. Groves. Those who are abroad during the time of the 
census are not included in censuses, they haven't been. The 
only exception for this are those who are serving in the 
military and abroad because we obtain administrative records 
from the Department of Defense for those, counts off of 
personnel records and those who are working for other Federal 
agencies formally stationed abroad. We do not attempt to count 
American citizens living abroad in general.
    Mr. Goldenkoff. That's correct. The reason for the 
difference is that if you were a civilian or a non-Federal 
employee on a military or civilian affiliated with the Federal 
Government, the reason for that is because your mission is part 
of your duty to the government to go overseas, and so those 
folks are included in the State count but not for purposes of 
the redistricting. For all other Americans overseas it's 
considered that you're doing that out of your own volition, and 
therefore you're not included in the census count.
    Mr. Clay. Is that an area--I mean, would you suggest it be 
an area that this subcommittee look at for future census.
    Mr. Goldenkoff. I mean, GAO does not take the position on 
who should be included, who shouldn't be included, that's a 
congressional perogative. We have weighed in on the operational 
aspect of it after the 2000 census was a big issue with the 
State of Utah counting the 11,000 Mormon missionaries at that 
time that were serving overseas. It's something that to the 
extent this is a concern of different States, and there are 
other States that also have a number of people living overseas 
or in different countries, some of the border States, for 
example. To the extent that it is an issue it could be 
something that the Bureau examines for the future, but it's 
something that should be done early in the decade because, I 
mean GAO has looked into the operational aspect of counting 
people overseas.
    You may recall the Census Bureau did a test of counting 
people overseas, they ran a test in Mexico, France and Kuwait 
in the early--this was right after the 2000 census and whereas 
we didn't take a position on who should be included in the 
census, we said it would be very expensive and have other 
operational issues. And so, it should be something--it's going 
to take a long time how to figure that out, how to do it if 
that's the way Congress and the Census Bureau want to go. It 
needs to be done early in the decade.
    Mr. Towns. Thank you very much. You know, Mr. Wagner 
mentioned something that I think that--and I realize that the 
Census Bureau is not concerned about redistricting, I 
understand that, but I must admit, elected officials and these 
individuals you talked about in terms of prison, in prisons, 
the individuals in prisons they are counted in the facility 
that they're located in. This practice, excuse me, the 
redistricting process, I mean, it's a serious one. I mean, if 
you think about an area where you have a prison and you have a 
tremendous population there and they're counted there in that 
particular facility, don't you feel that could, Mr. Wagner, I'd 
like to hear your views on that, I think that is creating 
problems because they're not there permanently.
    Mr. Wagner. Actually, legally speaking prisoners have never 
left their homes. In New York State and most States have 
constitutional clauses or election law statutes they very 
explicitly say that incarceration does not change their 
residence, so legally speaking the people in prison are still 
back at home. And then our system of representative democracy 
requires that legislative districts each contain the same 
number of people, so each person has the same access to 
government regardless of where they live. That process breaks 
down when this data that States rely on to draw the district or 
the counties rely on does not reflect where the people are.
    Mr. Towns. So you can have a prison with 50,000 people and 
of course they can't even vote in that area, but it's part of 
that industry.
    Mr. Wagner. Correct. And in the two States where prisoners 
can vote, they have to do so absentee back in their home 
district.
    Mr. Towns. I mean, that's something that you might have to 
take a look at and see in terms of how we should address that 
and come up with a system kind of operation, some States do it, 
other States do not.
    Mr. Wagner. Absolutely. I think that this is the only 
opportunity for States in this cycle to do things at the State 
level, but I think it would be ideal for Congress and the 
Census Bureau to come up with a good system very early in this 
decade for the 2020 and future censuses.
    Mr. Towns. You know, when you have people living in these 
large facilities, when this happens, are you sure that we're 
really getting an accurate count, you know, in these 
facilities, Mr. Ellett.
    Mr. Ellett. I can speak for NYU and I will assure you that 
we will get every person who lives there in our jurisdiction. I 
can't say for all colleges and universities that's accurate, 
because I am, you know, you're dependent on undergraduate 
residents assistants to go to the floor and collect the forms, 
and whether or not someone turns in their form or not, I would 
say would probably not be a hundred percent accurate. And I 
would be surprised if the numbers that you get back aren't 
consistent with the university's number of how many paid 
students are living in housing as of April 1, 2010. I think 
there would be a large discrepancy between those two numbers, 
because universities know how many people are in their 
jurisdiction because they've paid to be there and are receiving 
payment from those students. Will the census receive all of 
those forms back from that institution, I would say it would be 
a high unlikelihood that would happen.
    Mr. Towns. I guess in terms of you, Dr. Groves, are you 
satisfied and feeling comfortable now with the training that 
people have had up to this point and that the--in terms of the 
community, in terms of the services, in terms of the language 
and culture and lifestyle, do you feel comfortable that we're 
ahead of where we were the last census and the census before 
that.
    Dr. Groves. The question phrased that way, I am quite 
comfortable. We are the unanticipated beneficiaries of this 
horrible recession we're living through. The quality of the 
staff that we're now recruiting and the quantity of people 
applying are at unprecedented high. So, relative to the 2000 
census the quality of the staff and the experience they bring 
to the task is something that I think we could always be quite 
comfortable with.
    We are hiring, as you know, Congressman locally. That puts 
a constraint on our recruitment, but there's a big payoff of 
that constraint, and that is we have people who know the 
neighborhoods that they're working for non-response followup 
phases, they know the streets, they know the comings and goings 
of people, and I think we've learned over the decade that is a 
very important step. We're hiring people with language skills 
that are needed in the neighborhoods. That too is a constraint 
on our hiring, but is a huge payoff in terms of the quality of 
the data we get.
    Mr. Towns. You're not going to get this one from the 
Members of Congress, but I want to put it this way. What can we 
as Members of Congress do to help you, you're going to hear 
that too many times.
    Dr. Groves. I'll take advantage of it though. This is an 
important few weeks we're all living through. We really need 
you to speak out to say that the census is a deeply 
constitutional thing that we've done, it's important, it's the 
cornerstone of the democracy, that we have made it an easy 
thing to do this decade by having just the short form that 
should take you 10 minutes. And it's a very safe thing for all 
of your--the people who live in your district to participate in 
this census. You can assure them that they'll never be harmed 
by doing this. They only get their fair share of the benefits 
of congressional representation and the over $400 billion a 
year of taxpayer money that is returned to local neighborhoods 
and cities and States based on these data. That message we're 
trying to get out in the advertising, we're trying to use 
trusted voices in any way we can, and this is the moment we 
need you to speak out as loudly and as widely as you possibly 
can, and I know you've done that and I thank you for what 
you've done.
    Mr. Towns. Let me ask you, is there a pattern here that 
seniors don't turn it in or young people don't turn it in, is 
there a pattern? Is there anything that's been established that 
can be worked on and talked about to try and make certain that 
we really get this accurate count this time.
    Dr. Groves. If there are there are influences on behaviors 
that seem to be present over and over. Right now I'm terribly 
worried about young people who are being asked to fill out the 
census for the first time. Last census their parents filled it 
out. If you look at--there was a recent PEW study that asked 
people, ``have you heard about this thing called a census.'' 
Thirty-one percent of those 18 to 29 said ``no, I haven't heard 
of a census.'' Then the interviewer said, ``well, let me tell 
you what a census is. A census is a count of everyone who lives 
in the country. Now that I've told you what it is, have you 
heard of it?'' That 31 percent goes down to 17 percent, only to 
17 percent. So, we have a massive challenge in front of us and 
it happens every decade.
    For someone who is newly establishing themselves as head of 
the household, they're living independently, they have no 
experience with the census, they don't know what it is. And so, 
young people traditionally are tough groups to get 
participation on and it's true this decade, we have the data to 
show it. We're trying to use special outreach to those groups, 
advertising in media that they watch and they care about, we're 
using more digital media than we've used before. We need 
everyone to target that group. And I can go on and on, but let 
me stop. I just chose that one to start with.
    Mr. Towns. Let me just say that I'm trying to look at ways 
and methods that we can get to where we need to go. Now I know 
that you have regions and all of that, I understand that. Have 
you thought about just specializing in certain areas of 
specialization, that you would have a person who only deals 
with seniors and senior homes, senior housing, seniors in 
nursing homes and just sort of specialize in these areas to be 
able to sort of go in and sort of get these kind of counts as 
an expertise in these areas where people are out there all the 
time and be able to just sort of go and get this information in 
a special kind of way. That would be his or her job, she is 
director of all of these senior homes, senior housing, this 
person is in charge of nursing homes, this person is in charge 
of hospitals, whatever it is that you would have in terms of 
specialization, residence and regional kind of things.
    Dr. Groves. So an organization that's sort of functional 
rather than geographical.
    Mr. Towns. Right.
    Dr. Groves. I think it's a good idea and one to talk about. 
I think there are seeds of that kind of functional 
specialization within the region, so. One of the wonderful 
things that happened this decade, the stimulus money that the 
Census Bureau received allowed us to hire specialists of that 
sort. Some of them--so there's a partnership specialist in the 
Boston Regional Census Center that's specializing in the 
colleges of Boston, so there's going to be a competition among 
the colleges in Boston because of this person for participation 
rates, and they're trying to do that.
    And we really tried to specialize on language and cultural 
subgroups, so our partner specialists nationwide speak over 130 
different languages, and every area of the country really has 
different pockets of different language and new immigrant 
groups. We're trying to exploit local ties and that way most of 
these partnership specialists were hired out of those 
communities. They have deep and rich ties inside the community 
in order to get the word out through formal and informal 
networks. We could always do more. I am impressed with how much 
more we could be doing, but we're trying along those lines.
    Mr. Towns. Let me just go down the line and just ask, what 
more, what do you think that should be done that's not being 
done at this particular time?
    Mr. Goldenkoff. I don't know how much more we could do at 
this point that the Census Bureau isn't already doing. I think 
what we all need to remember--I agree with everything that Dr. 
Groves has said, but let me put sort of a future look on this. 
That what the Nation needs to do and Congress needs to do is 
not lose sight of the census in those intercensul years. Where 
are we going to be come April 1, 2011, we all disappear. You 
know, after the 2000 census I think we gave our last hearing 
sometime in 2000, the next hearing wasn't until 2006.
    Mr. Towns. He wasn't the chairman.
    Mr. Goldenkoff. I mean, the chairs came and went. And, 
again, you know, we're not trying to point fingers at anybody 
either. I mean, other priorities come up and there's a tendency 
to think, ``hey, it's 10 years away, why are we looking at 
something that's 10 years away because we have priorities here 
and now.'' But the thing is, you can't do that because so many 
things buildup.
    Census after census we always seem to be starting from 
square one, the advertising, the building of the access, that 
has changed somewhat with ACS. This whole notion of building 
census awareness, what we need to do is we need to put it in 
people's consciousness early, build that into the curriculum in 
school systems for example as part of civics classes. You know, 
if they started learning it in first grade, you know, when 
you're in first grade 2010, by 2020, well, that's 10 years 
later, they've heard that same message for ten consecutive 
years and so now it's part of their sense of consciousness and 
so their parents are aware of it, you know. So, those are the 
type of things that need to be done. We can't just disappear 
come 2011. It just needs to be on our radar screen continually.
    The same is true with the enumeration of prisoners. I mean, 
this has been--you know, for those of us, you know, the census 
stakeholders, the census geeks, we talk about this throughout 
the decade, but nobody starts listening to us until, you know, 
again, 2008, 2009 when it's too late to do anything about it. 
So, you know, I'll just close here by saying we need to keep up 
the momentum and sustain that momentum, keep holding hearings, 
keep the focus on GAO, hold us accountable for providing new 
information during the design phase of the census. Hold the 
Census Bureau accountable.
    We've already, you know, Dr. Groves and I we meet on a 
regular basis and we're talking about not only current issues, 
but we're talking about 2020 issues. So, I think we all need to 
be doing that and we all need to get down to the States and the 
school systems. Businesses need to get involved too because 
they benefit from census data. But we just have to keep it on 
our radar screen.
    Mr. Towns. Mr. Wagner.
    Mr. Wagner. The census needs in this decade and--but some 
of the most important decisions and support needs to come in 
2011, 2012.
    Mr. Towns. What do you think of the specialization concept 
to having a person deal with the prisons, having another person 
deal with as previously described, what do you think of that, 
I'm just curious.
    Mr. Goldenkoff. I think in terms of actually collecting the 
forms and working with institutions, I would imagine that 
possibly should work very well in urban areas. I imagine it 
would be a challenge in rural areas where there's small jails 
and some small hospitals, I think that would be very 
complicated in rural areas. But I do think in terms of 
designing the group quarters count, that greater and greater 
specialization and expertise I'm sure will be very helpful. And 
I'm sure this is probably some of what the Bureau did when they 
overhauled the group quarters count over the last decade with 
bringing more of the subject matter experts, but I do I think 
that the specialization would work, would have an easier time 
in the urban areas.
    Mr. Towns. Mr. Ellett.
    Mr. Ellett. I would say your suggestion is brilliant and I 
would say that the professional association could benefit from 
that too. The professional associations which I participated in 
would certainly have loved to have some outreach, that their 
monthly newsletters and magazines certainly have some featured 
article on the census upcoming for students living in residence 
homes across the country. None were featured and I think 
there's a potential opportunity there that you could use for 
not only college and university housing professional 
associations, but I'm sure that the prison system has a special 
association and others that may be in other areas which we 
could work with in the future.
    Mr. Towns. Thank you, Mr. Chairman. I yield back.
    Mr. Clay. Mr. Goldenkoff, I've never heard the term census 
geek.
    Mr. Goldenkoff. You're looking at four of them.
    Mr. Clay. Let me ask you seriously though, do you believe 
the addition of group quarters from the--will reduce the 
number?
    Mr. Goldenkoff. Yes, mainly because there were two separate 
lists in the past and this is what happened with some colleges, 
for example, because of just the kind of the uniqueness of 
dormitory addresses. If they had a street address, for example, 
they would sometimes show up in the Census Bureau housing unit 
data base, but they'd also show up in the group quarters data 
base and they can get counted twice and raise the risk of 
counting them then twice, so by combining them to a single data 
base, it's either for the Census Bureau to clean up the record.
    Mr. Clay. Mr. Ellett, many college students have mailboxes 
that are separate from their dorm rooms, how can the Census 
deal with this situation and are census forms mailed to the 
mailboxes or delivered to their rooms, how does the process 
work?
    Mr. Ellett. I'm sure it varies from college to college. I 
know in our conversation with Census we determined together 
that it would be best if they were to label, we would give the 
label to the Census Bureau. They would put the label on the 
envelopes, deliver them to each individual residence hall to 
our staff and our staff by floor would go knock on each of the 
doors, collect them after they've been completed in their 
folded envelopes and then we would return them, the Census 
would come back and pick it up. That varies from institution to 
institution. I talked to some colleagues who they were mailing 
out, but the majority was that they were working in concert 
with the Census to come on the campus and to do the same model 
that we described at NYU.
    Mr. Clay. Dr. Groves.
    Dr. Groves. The NYU model is the ideal model from our 
viewpoint because it engages local knowledge and then it 
utilizes proper confidentiality controls, people who know the 
population quite well to help us enumerate. It works quite 
well.
    Mr. Clay. Members of Congress usually reside in two places, 
one in their home district and Washington.
    Mr. Towns. Some of them in the office.
    Mr. Clay. Well, they wouldn't get the questionnaire there. 
Which one do you want us to answer for the primary residence?
    Dr. Groves. You'll get a questionnaire--I don't know your 
living situation, I'm guessing----
    Mr. Clay. I'm sure I'll get one.
    Dr. Groves. I certainly hope you'll get a questionnaire. 
Let's say you get two questionnaires because you have a place 
in St. Louis and you have a place in Washington, you are to 
fill out the questionnaire as to the place where you usually 
reside. You know that, I don't know what that is. And the other 
residence, if you live by yourself in that other residence you 
should put down zero people currently living there and the 
person who filled it out has a usual household elsewhere, 
that's the proper thing. And that's the same as would apply to 
someone who spends their winters in Florida but their summers 
in New York, they may get two forms, so you fill out the form 
where you usually live.
    Mr. Goldenkoff. What does that really mean? You know, if I 
could just suggest, you know, if you look at the form there 
is--you know, that could lead to a certain amount of confusion 
because where you usually live--well, what does that really 
mean, it's not tied to anything quantifiable? And, you know, 
maybe a suggestion for the future is have the Bureau say 
``well, where do you spend either most of the time,'' or, ``do 
you spend more than 6 months of the time at this household.''
    I think it could be--if you look at the form it could 
confuse people, geeks and non-geeks alike. Because I have 
looked at it and, you know, I don't know if I would be clear if 
I had two residences and the time was more or less split so 
that some people who work in one location, you have two 
residence like Members of Congress, you know, Monday through 
Friday in one location and then on weekends you spend it in 
your other location. What you would consider your home because 
that's where you have an emotional affinity to, but technically 
you should be enumerated where you spend most of the time, 
which would be your Monday through Friday address even though 
that might be a small apartment somewhere.
    Dr. Groves. It seems like you figured it out.
    Mr. Goldenkoff. But the thing is remember I'm a geek. So, 
anyway, I just wanted to point that out as something, that 
maybe something that the Census Bureau can work and quantify it 
in terms of a time period versus something a little bit more 
subjective.
    Mr. Towns. First of all, I want to thank you. That's why 
the hearing is so important. Just having a chance to exchange 
ideas, get information out, get input, you know, because 
generally when you have a hearing like this I'll get a bunch of 
notes from people in the audience later on, that will 
indicate--which also is very helpful. And you have some active 
leadership here on the census and of course we want to work 
with you, we want to make certain you get a good count. We 
recognize how important it is. I mean, no doubt about it. And 
that we lose resources when we don't get it on the count. And 
we've had experience here, you know, with of course in this 
borough of not getting a strong count.
    We had some very serious problems over the years, that's 
the reason why I'm happy to be able to have a hearing here, so 
we're able to get the executives in the room and everybody gets 
a chance to introduce city council members that were here and, 
you know, because they're also concerned about the census and 
they're working hard to make certain that people in the 
communities are aware of the fact that the count is now getting 
ready to start. Of course we're hoping that this time around 
we'll be able to get a good count.
    I want to thank you, Chairman Clay, for coming to Brooklyn 
with the hearing because we feel that it's important to have 
this dialog, so thank you very, very much. I look forward to 
working with you, I look forward to working with you, Dr. 
Groves, to be able to strengthen it as we move forward.
    Mr. Clay. Thank you so much, Chairman Towns. Let me also 
thank the people in the borough of Brooklyn and particularly 
Chairman Towns for your hospitality and to the subcommittee's 
hand to help us raise awareness of the importance of the census 
of counting everyone in order to get an accurate snapshot of 
what America looks like and who resides where on that 
particular day April 1, 2010. We thank the entire staff for 
your hospitality, and thank you to the witnesses also for 
making this hearing possible.
    Without objection the committee stands adjourned. Thank 
you.
    [Whereupon, at 11:30 a.m., the subcommittee was adjourned.]
    [Additional information submitted for the hearing record 
follows:]

[GRAPHIC] [TIFF OMITTED] T1799.040

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
